No. 19-_____
IN THE
SUPREME COURT OF THE UNITED STATES
KIMBERLY WATSO, INDIVIDUALLY AND ON BEHALF
OF C.H. AND C.P., HER MINOR CHILDREN; KALEEN
DIETRICH,
Petitioners,
v.
TONY LOUREY, IN HIS OFFICIAL CAPACITY AS
COMMISSIONER OF THE DEPARTMENT OF HUMAN
SERVICES; SCOTT COUNTY; JUDGE JOHN E.
JACOBSON, IN HIS OFFICIAL CAPACITY; TRIBAL
COURT OF THE SHAKOPEE MDEWAKANTON
SIOUX (DAKOTA) COMMUNITY; JUDGE MARY
RINGHAND, IN HER OFFICIAL CAPACITY; TRIBAL
COURT OF THE RED LAKE BAND OF CHIPPEWA
INDIANS,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Eighth Circuit
SUPPLEMENTAL APPENDIX
Robert L. Sirianni, Jr., Esq.
BROWNSTONE, P.A.
Attorney for Petitioners
P.O. Box 2047
Winter Park, Florida 32790-2047
407-388-1900
robertsirianni@brownstonelaw.com

LEGAL PRINTERS

LLC,

Washington DC ! 202-747-2400 ! legalprinters.com

SA-i
TABLE OF CONTENTS
APPENDIX C- Report and Recommendation from
United States Magistrate Katherine Menendez
dated December 5, 2017 ................................... 24a

APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Kimberly Watso, individually and on behalf of C.H.
and C.P., her minor children, and Kaleen Dietrich,
Plaintiffs,
v.
Emily Piper in her official capacity as Commissioner
of the Department of Human Services; Scott County;
Tribal Court of the Shakopee Mdewakanton Sioux
(Dakota) Community; Judge John E. Jacobson, in
his official capacity; Tribal Court of the Red Lake
Band of Chippewa Indians; Judge Mary Ringhand,
in her official capacity; Isaac Hall; and Donald
Perkins,
Defendants.
Case No. 0:17-cv-00562-ADM-KMM
REPORT AND RECOMMENDATION
In this Report and Recommendation, the Court
addresses the following dispositive motions, which
were referred to the undersigned by the District Court:
(1)

The Tribal Court of the Shakopee
24a

Mdewkanton Sioux (Dakota) Community and
Judge John E. Jacobson’s Motion to Dismiss,
ECF No. 12;
(2)
Emily Piper’s Motion to
Plaintiffs’ Complaint, ECF No. 29;

Dismiss

(3)
Defendant Scott County’s Motion to
Dismiss, ECF No. 46;
(4)
The Tribal Court of the Red Lake Band of
Chippewa Indians and Judge Mary Ringhand’s
Motion to Dismiss, ECF No. 53.1
The Court held a hearing on these motions on May 25,
2017. For the reasons that follow, the Court
recommends that each of the motions be granted and
this matter be dismissed.
FACTUAL ALLEGATIONS2

1

The plaintiffs agreed to voluntarily dismiss their claims
against Isaac Hall and Donald Perkins. ECF Nos. 97 & 98.
Accordingly, Mr. Hall’s motion to dismiss, ECF No. 36, is moot.
The plaintiffs also recently filed a motion for partial summary
judgment. ECF No. 103. Because the Court concludes that the
complaint fails to state a claim, this motion for partial summary
judgment is also moot.
2

The bulk of the Complaint is comprised of legal
conclusions and assertions about the language, meaning, and
applicability of federal statutory provisions. Here, the Court only
sets forth the relatively straightforward factual averments within
the pleading.

25a

This case involves child welfare proceedings in
the Tribal Court of the Shakopee Mdewakanton Sioux
(Dakota) Community (the “SMSC Court”) and the
Tribal Court of the Red Lake Band of Chippewa
Indians (the “Red Lake Band Court”). Kimberly Watso
is the biological mother of two minor children, C.H.
and C.P. Compl. ¶ 1, ECF No. 1. Ms. Watso is a
non-Indian, id.; C.H. is a member of the Shakopee
Mdewakanton (Dakota) Community (“SMSC”), id. ¶¶
3, 30; and C.P. is a member of the Red Lake Band of
Chippewa Indians (“Red Lake Band”), id. ¶¶ 2, 27.
Isaac Hall is C.H.’s father, id. ¶ 15; and Donald
Perkins is the father of C.P, id. ¶ 14.
On January 22, 2015, a representative of the
SMSC Family and Children Services Department filed
an emergency ex parte petition in the SMSC Court
seeking a determination that C.P. and C.H were
children in need of assistance, and asking to transfer
custody to the SMSC’s Child Welfare Office.3 See
Watso v. Jacobson, et al. (“Watso I”), No. 16-cv-983
(PJS/HB), Doc. No. 1 ¶ 52 (D. Minn. May 31, 2016)
(Petition); id. at Doc. No. 14 (Exhibit A, Emergency Ex
Parte Pet. for Children in Need of Assistance). Three
days later, the SMSC Court determined that the
matter should not be heard ex parte and found that the
3

The Complaint implies that the events relevant to this
case began nearly a month later and does not acknowledge these
pre-existing child welfare proceedings in the SMSC Court.
However, at the hearing on the motions to dismiss, plaintiffs’
counsel acknowledged that SMSC child welfare proceedings
predated the event the plaintiffs chose as the starting point for
their pleading in this case.

26a

parents should be present. SMSC’s Ex. A, ECF No. 17.
On February 24, 2015, Ms. Watso and Mr. Hall
brought C.H. to a medical clinic for an examination of
C.H.’s head. Compl. ¶ 18. As a result of that visit, a
report of possible child abuse was made against Ms.
Watso and Mr. Hall. Id. ¶ 19. A detective with the
Shakopee Police Department issued a Notice of
72-Hour Police Health and Safety Hold notifying the
parents that C.H. and C.P. would be held at Children’s
Hospital.4 Compl., Ex. 3 (“72-Hour Hold”). No child
welfare proceedings were initiated in the state court
in Scott County. Id. ¶ 20.
The Complaint states that “on February 25,
2015, Scott County referred and transferred the C.H.
and C.P. matters to SMSC’s social service agency for
tribal court proceedings.” Compl. ¶ 129; see also id. ¶¶
20, 131. However, an exhibit attached to the
Complaint indicates that on February 25th, the SMSC
Court received an Emergency Ex Parte Motion to
Transfer Legal and Physical Custody of C.H. and C.P.
as part of the pre-existing child welfare proceedings
described above. Compl., Ex. 4. Though the motion to
remove the children from their parents’ custody was
originally filed ex parte, Ms. Watso was notified of the
motion at some point and filed an objection to the
SMSC Court’s exercise of jurisdiction in the child

4

Although the Complaint alleges that “Scott County
placed a 72 hour administrative hold on C.P. and C.H.,” Compl.
¶ 20, Exhibit 3 to the Complaint indicates that the notice was
generated by the Shakopee Police Department.

27a

welfare proceeding. Id. ¶¶ 130-36. The SMSC Court
rejected Ms. Watso’s arguments and issued orders
related to the custody and care of the children. See id.
¶ 137; id., Ex. 4. The SMSC Court also rejected Ms.
Watso’s argument that it lacked subject matter
jurisdiction because a Minnesota state court did not
first determine that jurisdiction should be transferred
to a tribal court. Id., Ex. 5 at 4. Eventually, on
January 17, 2017, the SMSC Court granted the Red
Lake Band’s motion to dismiss the tribal court
proceedings concerning C.P., who is a Red Lake Band
member, “allowing the Red Lake Nation to take
jurisdiction over C.P.” Id. ¶¶ 21, 142.
The present lawsuit is not Ms. Watso’s first
related to these matters. A previous federal case,
styled as a habeas petition, was voluntarily dismissed
as moot on February 10, 2017, id. ¶ 146, and this case
was filed on February 23, 2017. In this case, just as
she previously argued to the SMSC Court, Ms. Watso
essentially asserts that the tribal child welfare
proceedings that have taken place in the SMSC Court
and the Red Lake Band Court are invalid because the
Scott County District Court did not first decide that it
was proper for the tribal courts to exercise jurisdiction.
At the time this case was filed, Kaleen Dietrich,
who is the maternal grandmother of C.H. and C.P.,
was caring for C.P. pursuant to an order of the Red
Lake Band Court. Compl. ¶ 34. C.H. was under the

28a

care of Allene Ross5 pursuant to an order of the SMSC
Court. Id. ¶ 36. The Complaint ambiguously alleges
that “C.H. and C.P. do not reside [as of February 23,
2017] and are not domiciled within the boundaries of
Red Lake Nation of Chippewa Indians,” id. ¶ 25, but
there are no allegations setting forth where the
children lived when the child welfare proceedings
commenced.
CLAIMS FOR RELIEF
Ms. Watso alleges that the “transfer” of the child
welfare proceedings was contrary to the Indian Child
Welfare Act (“ICWA”), 25 U.S.C. § 1914, her federal
constitutional rights, and other provisions of federal
law. She “seeks dismissal of both tribal court
proceedings without prejudice and remand to
[MNDHS] and Scott County for Scott County and
[MNDHS]” so that any child-welfare decisions
concerning C.H. and C.P. are made by a State court
rather than a tribal court. See Compl. ¶ 147. Although
the Complaint originally included four separate
counts, each containing multiple claims against
various defendants, the issues have been considerably
narrowed by stipulation of the parties. ECF No. 71.6
5

The Complaint does not identify Allene Ross’
relationship to the other parties or either minor child.
6

Pursuant to a stipulation, the District Court dismissed
the plaintiffs’ civil rights claims under 42 U.S.C. § 1983 in Count
IV of the Complaint against SMSC, the SMSC Court, Judge John
E. Jacobson (official capacity), the Red Lake Band, the Red Lake
Band Court, and Judge Mary Ringhand (official capacity). Order,

29a

Currently before the Court are the following
more limited claims. Count I of the Complaint is most
clearly stated as a claimagainst the SMSC Court and
the Red Lake Band Court. It is possible that the
plaintiffs also intend to assert a claim in Count I
against Judge Jacobson and Judge Ringhand for their
actions in the tribal court proceedings. The plaintiffs
seek a declaration invalidating the tribal court childwelfare proceedings pursuant to the Indian Child
Welfare Act, 25 U.S.C. § 1914. They also request an
injunction requiring the SMSC Court and the Red
Lake Band Court to dismiss their respective child
custody proceedings for lack of jurisdiction. Compl. ¶¶
148-57. Finally, as part of Count I, Ms. Watso asks the
Court to enjoin Scott County to “re-initiate its
administrative proceedings regarding C.H. and C.P.
and to comply with this Court’s decision, ICWA and
MIFPA.” Id. ¶ 157.
Count III of the Complaint is asserted against
the DHS Commissioner and Scott County. In Count
III, pursuant to 42 U.S.C. § 1983, the plaintiffs allege
that the DHS Commissioner and Scott County violated

ECF No. 73. The District Court also dismissed habeas corpus
claims under the Indian Civil Rights Act, 25 U.S.C. § 1303, in
Count II of the Complaint against the SMSC Court, Judge
Jacobson (official capacity), the Red Lake Band Court, and Judge
Ringhand (official capacity). Id. Finally, the District Court
dismissed “all other claims . . . against [SMSC] and against
defendant [Red Lake] . . . so these defendants are no longer
parties to the case.” Id. The Court’s dismissal order, however,
noted that the dismissal of SMSC and the Red Lake Band did not
affect Count I of the Complaint as to any other defendant. Id.

30a

their rights under the United States Constitution (due
process and equal protection) and the Indian Child
Welfare Act. Id. ¶¶ 168-77.
As explained below, at its most fundamental, all
of the claims against all of the remaining defendants
rely upon a particular statutory analysis proffered by
the plaintiffs. However, because that analysis is
incorrect, it undermines the plaintiffs’ entire theory of
the case.
DISCUSSION
I.

Count I: State and Tribal Jurisdiction

Although the precise contours of the plaintiffs’
primary argument are not spelled out clearly in the
Complaint or in their response to the motions to
dismiss, at the hearing plaintiffs’ counsel articulated
an interpretation of several federal statutes that forms
the lynchpin of the assertion that the tribal court
proceedings must be invalidated. The plaintiffs’
argument relies on an interpretation of the
intersection of the Indian Child Welfare Act (“ICWA”)
and a specific provision of what is commonly referred
to as Public Law 280. However, careful examination of
both statutes and the case law interpreting them
reveals the errors in the plaintiffs’ reasoning.
A.

The Relevant Statutes

In order to understand the flaws in the
plaintiffs’ legal position, the Court must first examine
31a

the provisions and purposes of the two statutes upon
which they rely, and of the tribal code which they
disregard.
Public Law 280
In 1953, Congress enacted Public Law 83-280,
commonly known as PL 280, which delegated
jurisdiction to a handful of enumerated states over
many criminal and civil matters that arose on the
“Indian country” within those states.
Each of the States listed in the following
table shall have jurisdiction over civil
causes of action between Indians or to
which Indians are parties which arise in
the areas of Indian country listed
opposite the name of the State to the
same extent that such State has
jurisdiction over other civil causes of
action, and those civil laws of such State
that are of general application to private
persons or private property shall have
the same force and effect within such
Indian country as they have elsewhere
within the State[.]
28 U.S.C. § 1360(a). Most of the reservations within
the state of Minnesota, including SMSC, are covered
by PL 280, but the Red Lake Band is not. Importantly,
although PL 280 gave jurisdiction over some matters
to states, it left intact the inherent tribal jurisdiction

32a

over many of these matters that preceded the statute.7
Cohen’s Handbook of Federal Inidan Law § 6.04[3][c],
at 555 (Nell Jessup Newton ed., 2012) (hereinafter
“Cohen’s Handbook”) (“The nearly unanimous view
among tribal courts, state courts, lower federal courts,
state attorneys general, the Solicitor’s Office for the
Department of the interior, and legal scholars is that
Public Law 280 left the inherent civil and criminal
jurisdiction of Indian nations untouched.”); see also
Walker v. Rushing, 898 F.2d 672, 675 (8th Cir. 1990)
(“Nothing in the wording of Public Law 280 or its
legislative history precludes concurrent tribal
authority.”) (citing Cohen’s Handbook of Federal
Indian Law at 344 (1982)). PL 280 thus gave rise to
state authority over some matters in Indian Country,
but did not invalidate tribal sovereignty or tribal court
jurisdiction over most of these arenas.

7

It is an open question whether the civil matters over
which states were given jurisdiction by PL 280 even include child
welfare and child custody proceedings, such as those at issue in
the present case. PL 280 has been interpreted to mean that
regulatory matters are not included in its grant of authority to
states. See California v. Cabazon Band of Mission Indians, 480
U.S. 202, 212 (1987) (holding that California could not enforce its
regulatory prohibitions on certain games of bingo within an
Indian reservation because the law was not criminal in nature).
But it is far less clear whether child custody and welfare
proceedings are more akin to the civil matters over which the
states have power or regulatory matters, over which they do not.
See, e.g. Doe v. Mann, 415 F.3d 1038, 1058-61 (9th Cir. 2005).
The Court need not resolve this issue because it concludes that,
even if the State could have exercised jurisdiction in this matter,
the tribes validly did so.

33a

Indian Child Welfare Act
The Indian Child Welfare Act was adopted in
1978 in response to the extremely high numbers of
Indian children removed from their families and
communities through state court child welfare
proceedings.8 ICWA is codified at 25 U.S.C. §§
1901-1963. In its broadest terms, ICWA “constructs a
statutory scheme to prevent states from improperly
removing Indian children from their parents,
extended families and tribes . . . . It functions to
expand and enhance tribal power over
decision-making regarding [Indian] families.” Cohen’s
Handbook, § 11.01[1], at 830. Although ICWA is a
lengthy and complex statute, only a few provisions are
relevant here.
First, section 1911 contains language
addressing tribal jurisdiction over “Indian child
custody proceeding[s].” One provision of this section
addresses the “exclusive jurisdiction” of Indian tribes:
An Indian tribe shall have jurisdiction
exclusive as to any State over any child
custody proceeding involving an Indian
child who resides or is domiciled within
the reservation of such tribe, except
where such jurisdiction is otherwise

8

See, generally, Indian Child Welfare Program: Hearings
Before the Subcommittee on Indian Affairs of the House
Committee on Interior and Insular Affairs, 93 Cong. 15-32 (1974);
Cohen’s Handbook § 11.01, at 830-835.

34a

vested in the State by existing Federal
law. Where an Indian child is a ward of
a tribal court, the Indian tribe shall
retain exclusive jurisdiction,
notwithstanding the residence or
domicile of the child.
25 U.S.C. § 1911(a) (emphasis added). Another
paragraph in the same section goes on to advise that
“in any state court proceeding” involving the
placement or custody of an Indian child who is not
living within the reservation, the state court “shall
transfer such a proceeding to the jurisdiction of the
tribe, absent objection by either parent. . . .” Id. §
1911(b).
In essence, these provisions specify that there
are circumstances in which the states have no
jurisdiction and the tribes’ jurisdiction is exclusive.
Specifically, that is the case when the Indian children
involved in a child welfare proceeding reside or are
domiciled within a tribe’s reservation. 25 U.S.C. §
1911(a). But Indian tribes do not have exclusive
jurisdiction when some other provision of existing
federal law vests jurisdiction over Indian child welfare
proceedings in the State. Id. These provisions also
make clear that when a pre-existing state child
welfare proceeding involving Indian children is
underway, tribes can receive jurisdiction via transfer
from state courts, under certain circumstances. 25
U.S.C. § 1911(b). Subsection (d) of § 1911 requires the
United States, every state, and every Indian tribe to
give “full faith and credit” to the judicial proceedings
35a

of any tribe applicable to Indian child custody
proceedings. Together these provisions carry out
ICWA’s purpose “to expand and enhance tribal power
over decision-making regarding [Indian] families.”
Cohen’s Handbook, § 11.01[1], at 830 (emphasis
added).
One additional provision of ICWA is relied upon
by the plaintiffs to support their argument. Pursuant
to 25 U.S.C. § 1918(a), “[a]ny Indian tribe which
became subject to State jurisdiction [pursuant to
certain federal statutes, including PL 280] may
reassume jurisdiction over child custody proceedings.”
Section 1918(a) further provides that “[b]efore any
Indian tribe may reassume jurisdiction over Indian
child custody proceedings, such tribe shall present to
the Secretary for approval a petition to reassume such
jurisdiction which includes a suitable plan to exercise
such jurisdiction.” Id. Section 1918(b) goes on to
suggest that the jurisdiction to be reassumed could be
the exclusive jurisdiction of § 1911(a), functionally
terminating the power of the state authorities to also
exercise jurisdiction.
Tribal Laws
In addition to the two federal statutes explored
above, this case implicates matters of tribal law. Both
SMSC and Red Lake Band have tribal codes that
govern their exercise of their sovereign power over
child welfare and custody proceedings. Here SMSC’s
actions in exercising jurisdiction over C.H and C.P,
and in later transferring C.P.’s case to the Red Lake
36a

Band Court are at issue, actions that were governed by
SMSC’s Domestic Relations Code, which was
submitted to the Court as an exhibit. Decl. of Richard
Duncan ¶ 6, Ex. D, SMSC Domestic Relations Code,
ECF No. 16-1.
SMSC’s Code provides that the SMSC Court
shall “make such orders for the commitment, custody
and care of [a child in need of assistance] and take
such other actions as it may deem advisable and
appropriate in the interest of the child and in the
interests of the Community.” SMSC Domestic
Relations Code, Ch. VIII, sec. 9. The Code defines
“child in need of assistance” to include neglected and
abused children that are tribal members, eligible for
enrollment, or “any Indian child” domiciled on the
Reservation or temporarily located on the reservation.
Id. at sec. 2.d. Although it is not the business of this
Court to interpret SMSC’s own laws, recognizing that
there exists a tribal code governing these matters is
essential.
B.

The Plaintiff’s Theory

Against this backdrop, the legal flaws inherent
in the plaintiffs’ theory of their case become quickly
apparent. As clarified by plaintiffs’ counsel at the
hearing, the crux of the plaintiffs’ argument is that in
combination, PL 280, ICWA, and 25 U.S.C. § 1918(a),
deprive the SMSC Court of jurisdiction over any child
welfare matters involving C.H. and C.P. Under the
facts alleged in their Complaint, the plaintiffs contend
that these statutes either vest exclusive jurisdiction in
37a

the State of Minnesota or require a Minnesota state
court to first determine whether it is appropriate to
allow the SMSC Court or the Red Lake Band Court to
exercise concurrent jurisdiction.9
C.

SMSC and the State
Jurisdiction in this Matter

Share

Unfortunately for the plaintiffs, there is no
support for the idea that the State held exclusive
jurisdiction in this matter. Nor is there support for
their alternative suggestion that the state and SMSC
share jurisdiction, but the law required the State to
exercise its jurisdiction first. Instead, the statutes and
the case law interpreting them demonstrate that
SMSC acted squarely within its authority to exercise
jurisdiction over C.H. and C.P. More fundamentally,
even if the plaintiffs’ strained reading of these
statutes had merit, ICWA does not give rise to any
cause of action against tribes or challenging tribal
court actions. The plaintiffs’ theory is based on an
9

More specifically, the plaintiffs assert that the “existing
federal law” language in § 1911(a) creating an exception to
exclusive tribal jurisdiction is a reference to PL 280. Because PL
280 gives the State of Minnesota jurisdiction over civil causes of
actions which arise in Indian country (except Red Lake
Reservation), plaintiffs contend that SMSC could not have
exclusive jurisdiction under § 1911(a). Further, given that
SMSC’s jurisdiction was not exclusive and § 1911(b) contemplates
the transfer of some state court proceeding, the plaintiffs assert
that this means Scott County was required to first initiate a
proceeding in Scott County District Court before the SMSC Court
could ever exercise any concurrent jurisdiction vested in the
Tribe. See also Pl.’s Resp. at 8, 27-30, ECF No. 75.

38a

incorrect interpretation of the statutes at issue, and is
deepened by a disregard for the inherent jurisdiction
of SMSC and the Red Lake Band.
Doe v. Mann and Native Villages of
Venetie
Two Ninth Circuit Cases have explored the
intersection of PL 280 and ICWA, and stand for the
proposition that, although states may arguably have
concurrent jurisdiction over child welfare proceedings
involving Indian children, SMSC retains jurisdiction
as well. The Court turns first to Native Village of
Venetie v. Alaska, 944 F.2d 548 (9th Cir. 1991).
In Native Villages of Venetie the Ninth Circuit
held that tribes retain concurrent jurisdiction over
child welfare matters despite any provisions of PL 280.
Native Americans from two villages in Alaska adopted
children pursuant to tribal court rules, but the State
of Alaska refused to give effect to the tribal adoption
orders. 944 F.2d at 550-51. The adoptive Indian
parents filed a lawsuit against the State asserting that
under ICWA, Alaska was required to honor the tribal
adoption decrees. In response, Alaska argued that
Public Law 280 “stripped the [native] villages of
whatever authority they may have had to make
child-custody determinations,” and that “Public Law
280 vested the enumerated states with exclusive, not
merely concurrent, jurisdiction over civil and criminal
matters involving Indians.” Id. at 559. In rejecting
Alaska’s argument, the Ninth Circuit observed that
“Public Law 280 was designed not to supplant tribal
39a

institutions, but to supplement them,” and that PL 280
is “not a divestiture statute.” Id. at 560. Ultimately,
the court held “that neither [ICWA] nor Public Law
280 prevents [the native villages] from exercising
concurrent jurisdiction.” Id. at 562.10
Certainly, the notion that PL 280’s provision
giving states jurisdiction over certain civil causes of
action involving Indian parties, including child welfare
proceedings governed by ICWA, finds some support in
Doe v. Mann, 415 F.3d 1038 (9th Cir. 2005), but it
does nothing to elevate that state authority over tribal
jurisdiction, as the plaintiffs’ here contend. Doe v.
Mann did not involve a non-Indian parent’s challenge
to the exercise of tribal jurisdiction over an Indian
child, so it is not aligned with the circumstances of this
case. Instead, Doe v. Mann concerned a Native
American mother’s challenge to the State of
California’s termination of her parental rights over her
Indian child. Id. at 1039. After a report that the
plaintiff’s daughter had been assaulted by a male
cousin, California’s social services department
initiated child welfare proceedings in state court and
eventually terminated the mother’s rights. Id. at
1040. After addressing several preliminary issues, the
court explained that “[t]he ‘existing Federal law’
proviso in [ICWA’s § 1911(a)] has been interpreted to

10

The Ninth Circuit also rejected the argument that
ICWA’s § 1918 divested tribes in PL 280 states of all jurisdiction
in child custody cases, Native Village of Venetie, 944 F.2d at 561,
which is precisely the same argument raised by the plaintiffs
here.

40a

include a federal law popularly referred to as ‘Public
Law 280,’ which gives certain states, including
California, broad jurisdiction over criminal offenses
committed in Indian country . . . and limited
jurisdiction over civil causes of action that arise in
Indian country.” Id. at 1048. But, Doe v. Mann
certainly did not hold that the PL 280 carveout from
ICWA’s exclusive jurisdiction provision requires states
to exercise exclusive jurisdiction. Indeed, the Ninth
Circuit acknowledged that the states and tribes would
have concurrent jurisdiction over Indian child welfare
proceedings. See id. at 1067-68
(discussing
“California’s practice of asserting concurrent
jurisdiction under Public Law 280 over dependency
proceedings involving Indian children”). The court
explained that the question “whether Public Law 280
states have exclusive or concurrent jurisdiction over
child custody proceedings” was “resolved by [the Ninth
Circuit’s] decision in Native Village of Venetie, which
held that Public Law 280 states have only concurrent
jurisdiction with the tribes over child custody
proceedings involving Indian children.” Id. at 1063
n.32.
Despite the plaintiffs’ strained reading of Doe v.
Mann and Native Villages of Venetie, these cases
persuasively reason that the provision of PL 280
codified at 28 U.S.C. § 1360(a) does nothing to
eliminate a tribal court role in Indian tribal welfare
proceedings. Neither case suggests that in a PL 280
state jurisdiction over child welfare proceedings lies
exclusively with the state courts and must be governed
by state law. Rather, Doe v. Mann and Native Villages
41a

of Venetie clearly indicate that, even in PL 280 states,
tribes share jurisdiction concurrently with the states.
The plain language of ICWA’s exclusive
jurisdiction provision (25 U.S.C. § 1911(a)) and of PL
280’s limited grant of civil jurisdiction to certain states
including the State of Minnesota (28 U.S.C. § 1360(a))
likewise does not support the plaintiffs’ position.
ICWA establishes that tribes have exclusive
jurisdiction over Indian children domiciled or residing
on the reservations with an exception to such
exclusivity when a state has jurisdiction over a child
welfare proceeding under existing federal law. PL
280’s limited grant of jurisdiction over civil matters in
Indian country in certain states includes Minnesota.
But nothing in the relevant provision of PL 280 says
that the states’ power to adjudicate those proceedings
becomes exclusive of any tribal authority.
Indeed, adopting the plaintiffs’ interpretation
would stand the purpose of ICWA completely on its
head. ICWA was passed to ensure that tribes play a
robust role in child custody proceedings involving
Indian children whether they live on or off the
reservation because previous practice had resulted in
the breakup of Indian families by state and private
agencies. See 25 U.S.C. § 1901(4). Congress explicitly
found “that the States, exercising their recognized
jurisdiction over Indian child custody proceedings
through administrative and judicial bodies, have often
failed to recognize the essential tribal relations of
Indian people and the cultural and social standards
prevailing in Indian communities and families.” 25
42a

U.S.C. § 1901(5). “The purpose of ICWA was to rectify
state agency and court actions that resulted in the
removal of Indian children from their Indian
communities and heritage.” Doe v. Mann, 415 F.3d at
1047 & n.11 (citing 25 U.S.C. § 1901(5)). It simply
cannot be read to limit tribal jurisdiction over Indian
children.
25 U.S.C. § 1911(b)
The plaintiffs reference another jurisdictional
provision of ICWA providing for transfer of child
custody proceedings to the jurisdiction of a tribe: 25
U.S.C. § 1911(b) (“ICWA’s transfer provision”). As best
the Court can discern, the plaintiffs contend that
absent exclusive tribal jurisdiction, ICWA’s transfer
provision requires a state court child welfare
proceeding to be initiated prior to any tribal court
proceeding involving an Indian child. The initiation of
such a state court proceeding, plaintiffs argue, would
thus trigger the requirement that any transfer of an
Indian child-welfare proceeding be accompanied by
parental consent. See Pls.’ Opp’n. at 8-9 & 27-28, ECF
No. 75. This alternative argument finds no support in
§1911(b) or in any provision cited by the plaintiffs in
their Complaint, memorandum in opposition to the
motions to dismiss, or at the hearing.
ICWA’s transfer provision reads as follows:
In any State court proceeding for the
foster care placement of, or termination
of parental rights to, an Indian child not
43a

domiciled or residing within the
reservation of the Indian child’s tribe, the
court, in the absence of good cause to the
contrary, shall transfer such proceeding
to the jurisdiction of the tribe, absent
objection by either parent, upon the
petition of either parent or the Indian
custodian or the Indian child’s tribe:
Provided, That such transfer shall be
subject to declination by the tribal court
of such tribe.
25 U.S.C. § 1911(b). The plaintiffs argue that because
there was no parental consent here, the State could
not “transfer” the proceedings to the SMSC Court.
Plaintiffs’ reliance on § 1911(b) is unavailing for
two reasons. First, no “state court proceeding”
regarding the welfare of the children at issue here
existed at any point, making § 1911(b) inapplicable on
its face. SMSC initiated child protection proceedings
on January 22, 2015, proceedings which were ongoing
when the Shakopee Police Department issued its own
72-hour hold on February 24, 2015. By its own terms
§ 1911(b) only applies to those situations in which a
state court childwelfare proceeding is already
underway. Morevover, ICWA’s transfer provision
“creates concurrent but presumptively tribal
jurisdiction in the case of children not domiciled on the
reservation[.]” Mississippi Band of Choctaw Indians v.
Holyfield, 490 U.S. 30, 36 (1989). Such presumptively
tribal jurisdiction cannot be read to require a state
court proceeding concerning the welfare of an Indian
44a

child to precede an action in a tribal court. Here, the
plaintiffs’ allegations admit that no state court
proceeding was ever initiated. It is thus difficult to
discern what relevance, if any, ICWA’s transfer
provision has to this lawsuit.
Second, the plaintiffs failed to allege any facts
indicating that the children were neither residing nor
domiciled on the SMSC reservation at the time the
SMSC Court took jurisdiction over the relevant
child-welfare proceedings. In their Complaint, the
plaintiffs alleged only that, at the time the lawsuit was
filed, neither C.H. nor C.P. resided on the Red Lake
reservation. Compl. ¶ 4. But the plaintiffs’ allegations
about the location of C.H. and C.P. in February of 2017
when the Complaint was filed is irrelevant to the
location of the children on January 22, 2015, when a
representative of the Community Family and Children
Services Department filed an emergency ex parte
petition in the SMSC Court seeking a determination
that C.P. and C.H were children in need of assistance,
and to transfer custody to the Community’s Child
Welfare Office. In fact, the record before the Court
demonstrates that C.H. and C.P. were domiciled at an
address on the Shakopee Reservation with Ms. Watso
and C.H.’s father. Community Defs.’ Ex. A at 5 (“At the
time the Child Welfare Officer’s petition was filed,
and for a number of months preceding the filing,
C.M.H. and C.D.P. were domiciled . . . on the
Shakopee Reservation.”). Thus, regardless of the
precise contours of the plaintiffs’ argument concerning
§ 1911(b), their Complaint fails to allege any facts that

45a

would make that provision relevant to this case.11
No Cause of Action Against the
Tribes
In addition to the above-explored problems with
the plaintiffs’ legal theory, their reliance on ICWA as
the basis for their claims suffers from an additional
fatal flaw. ICWA’s section 1914, on which the
plaintiffs’ rely, does not create any cause of action
against tribes or any basis to invalidate Section 1914
provides:
Any Indian child who is the subject of
any action for foster care placement or
termination of parental rights under
State law, any parent or Indian
custodian from whose custody such child
was removed, and the Indian child’s tribe

11

In their Complaint, the plaintiffs do not discuss the fact
that there was a preexisting child welfare proceeding in the
SMSC Court at the time of the hospital’s February 25, 2015
report of possible child abuse and a Shakopee police officer’s
decision to place a 72-hour hold on C.H. During a January 28,
2015 hearing, Judge John Jacobson concluded that C.H. and C.P.
were children in need of assistance pursuant to SMSC’s laws.
Community Defs.’ Ex. F, ECF No. 21. The Complaint elides this
information, and the plaintiffs make no effort whatsoever to
address whether this conclusion made the children “ward[s] of a
tribal court,” which would mean that SMSC “retain[ed] exclusive
jurisdiction, notwithstanding the residence or domicile of the
child.” 25 U.S.C. § 1911(a). This overlooked provision, if
applicable, would further reinforce the validity of SMSC’s
exercise of jurisdiction in this case.

46a

may petition any court of competent
jurisdiction to invalidate such action
upon a showing that such action violated
any provision of sections 1911, 1912, and
1913 of this title.
25 U.S.C. § 1914. As the plain language of this
provision makes clear, it does not create a cause of
action for a parent of an Indian child, such as
Ms.Watso, to invalidate the child-welfare proceedings
of a tribal court, which the plaintiffs seek to do here.
The reality that the statute does not authorize
the type of claim the plaintiffs bring in Count I has
been recognized by the Ninth Circuit:
Section 1914 provides that the Indian
child, the parent or Indian custodian, or
the tribe “may petition any court of
competent jurisdiction to invalidate such
action.” 25 U.S.C. § 1914. The action
referred to is a state court action for
“foster care placement or termination of
parental rights.” Id. The language of the
statute could not be clearer: Congress is
authorizing any court of competent
jurisdiction to invalidate a state court
judgment involving the Indian child.
Doe v. Mann, 415 F.3d at 1047. Section 1914 does not
suggest that the parent of an Indian child may
petition a federal court to invalidate a tribal
proceedingfor foster care placement or termination of
47a

parental rights. And such an interpretation would be
inconsistent with ICWA’s purpose, which was designed
to ensure that state proceedings involving Indian
children adhered to certain standards. ICWA sought to
strengthen rather than undermine the authority of
tribal courts in these arenas. This reality which
further weakens the plaintiffs’ theory.
The plaintiffs do not point to any case that
construes the language of § 1914 to allow a parent to
bring a lawsuit to invalidate a tribal proceeding
involving foster care placement or termination of
parental rights. Indeed, the plaintiffs do not address
this issue at all in their response to the motions to
dismiss. Nor has the Court, in its own research,
located any precedent that supports the plaintiffs’
implicit position that such a suit would find a basis in
ICWA. Accordingly, the Court concludes that Count I
of the Complaint should be dismissed because
25U.S.C. § 1914 does not authorize a right of action by
the parent of an Indian child to invalidate tribal child
welfare proceedings.
Conclusion
For all these reasons, the Court concludes that
the overarching legal argument on which all of the
plaintiffs’ claims rely lacks merit. Neither ICWA nor
Public Law 280 confer exclusive jurisdiction on the
State of Minnesota under the facts alleged in the
Complaint. Instead, in a Public Law 280 state such as
Minnesota, the State and tribal courts have concurrent
jurisdiction over the child-welfare proceedings
48a

involving C.H. and C.P. And there is nothing about
that concurrent jurisdiction that requires the initiation
of a state court proceeding first, prior to any
proceeding taking place in the SMSC Court or the Red
Lake Band Court. Because the plaintiffs’ flawed
statutory argument is the centerpiece of all of its
claims in Counts I and III, and for the additional
reasons set forth below, the Court recommends that
the Complaint be dismissed in its entirety.
II.

Count I: Tribal Sovereignty

In the discussion above, the Court has analyzed
Count I primarily as a claim against the tribal courts.
Count I does not clearly assert a claim against the
tribal court judges named as defendants in the
Complaint—Judge Jacobson and Judge Ringhand.
However, to the extent the plaintiffs claim that Judge
Jacobson and Judge Ringhand violated federal law by
exercising jurisdiction over the child welfare
proceedings involving C.H. and C.P., such claims lack
merit for the same reasons described above in Part I.
In the following discussion, the Court also concludes
that any claim in Count I of the Complaint against the
tribal courts, Judge Jacobson, or Judge Ringhand
should be dismissed for another reason as well:
sovereign immunity.
Sovereign Immunity for Tribal Courts
The SMSC Court and the Red Lake Band Court
are entitled to the same sovereign immunity that bars
any claims against SMSC and the Red Lake Band.
49a

Federally recognized Indian tribes, such as SMSC and
the Red Lake Band possess sovereign immunity from
suit. Smith v. Babbitt, 100 F.3d 556 (8th Cir. 1996).
Such tribes are subject to suit only when Congress
authorizes it or they waive their immunity. Kiowa
Tribe of Oklahoma v. Manufacturing Technologies,
Inc., 523 U.S. 751, 754 (1998). “‘[A] tribe’s sovereign
immunity may extend to tribal agencies,’ including [a]
Tribal Court.” Fort Yates Public School Dist. No. 4 v.
Murphy ex rel. C.M.B., 786 F.3d 662, 670 (8th Cir.
2015) (quoting Hagen v. Sisseton-Wahpeton Cmty.
Coll., 205 F.3d 1040, 1043 (8th Cir. 2000)). “The
Supreme Court has made clear . . . that a tribe’s
sovereign immunity bars suits against the tribe for
injunctive and declaratory relief.” Id. (citing Michigan
v. Bay Mills Indian Cmty., 134 S. Ct. 2024, 2035
(2014)).
Here, the SMSC Court and the Red Lake Band
Court are unquestionably tribal agencies to which
tribal sovereign immunity extends. Count I seeks
declaratory relief by asking this Court to issue an
Order finding that the SMSC Court and the Red Lake
Band Court’s child welfare proceedings have been
undertaken in the absence of jurisdiction and
declaring those proceedings invalid. The plaintiffs also
ask the Court to issue an injunction requiring the
tribal courts to dismiss their proceedings so that a new
child-welfare determination can be made by the state
court. But the tribal sovereignty enjoyed by SMSC and
Red Lake Band bars lawsuits against the SMSC Court
and the Red Lake Band Court for injunctive and
declaratory relief. Moreover, the plaintiffs made no
50a

attempt to argue otherwise in their response to the
tribal defendants’ arguments concerning sovereign
immunity and have therefore abandoned any claim
that their suit could proceed against the tribal courts.
See Pls.’ Opp’n at 4547 (discussing only the issue
whether sovereign immunity extends to tribal
officials). Because the case law supports the tribal
courts’ position and the plaintiffs have abandoned
their claim against the tribal courts, Count I should be
dismissed on grounds of sovereign immunity as to the
SMSC Court and the Red Lake Band Court.
Sovereign Immunity for Tribal Judges
The question of whether Judge Jacobson and
Judge Ringhand are also immune from suit is
somewhat less straightforward. However, because the
Court has rejected the plaintiffs’ argument that either
judge acted beyond his or her authority, the Court also
finds that sovereign immunity extends to these judges
as well.
A tribe’s “sovereign immunity does not
necessarily protect Tribal officials from suit.” Fort
Yates, 786 F.3d at 670 n.8 (citing Bay Mills, 134 S. Ct.
at 2035). Tribal immunity can protect tribal employees
who act in their official capacities and within the scope
of their authority in a suit for damages because an
award of money damages would affect the tribe itself.
See Baker Elec. Coop., Inc. v. Chaske, 28 F.3d 1466,
1471 (8th Cir. 1999) (citing N. States Power Co. v.
Prairie Island Mdewakanton Sioux Indian Cmty., 991
F.2d 458, 460 (8th Cir. 1993)). However, tribal
51a

immunity does not bar suits “for injunctive relief
against individuals, including tribal officers,
responsible for unlawful conduct.” Bay Mills, 134 S.
Ct. at 2035. This means that a lawsuit may proceed
against a tribal official who acts outside the scope of
his authority under federal law. Prairie Island, 991
F.2d at 460. Such a lawsuit may only proceed if it
involves a claim for prospective relief and this
exception to sovereign immunity “does not permit
judgments against [tribal] officers declaring that they
violated federal law in the past.” Puerto Rico Aqueduct
and Sewer Authority v. Metcalf, 506 U.S. 139, 146
(1993).
In Prairie Island, 991 F.2d at 460-62, the
Eighth Circuit applied these rules creating an
exception to tribal sovereignty for claims seeking
prospective injunctive relief against tribal officials,
which essentially mirrors the doctrine of Ex Parte
Young, 209 U.S. 123, 159-60 (1908). Prairie Island
involved a tribe’s attempt to regulate the
transportation of radioactive nuclear materials across
reservation lands by a power company that operated a
nuclear plant near the reservation. Id. at 459. The
tribe passed an ordinance that required anyone
transporting such materials on reservation land to
obtain a separate license for each shipment, imposed
timing requirements on the applications for those
licenses, charged an application fee, and authorized
the tribal council the power to determine whether to
issue a license and to impose a significant fine for
willful violations of the ordinance. Id. The power
company brought suit against the tribe and the
52a

individual tribal council members, and the district
court enjoined the defendants from enforcing the
ordinance or interfering with the use of roads or
railroads through the reservation. Id. at 460. On
appeal, the tribe argued that “tribal sovereign
immunity preclude[d] the suit and protect[ed] the
tribal officers.” Id. Because the Hazardous Materials
Transportation Act, 49 U.S.C. § 1801-1819, preempted
the tribe’s power to enact the ordinance regulating the
transportation of the nuclear material across its
reservation, the Eighth Circuit rejected the tribe’s
argument and upheld the district court’s injunction.
Id. at 461-62. The court reasoned that tribal sovereign
immunity did not apply to the tribal officers because
they acted pursuant to an ordinance that the tribe did
not itself have the power to enact. Id.at 462. Thus, if
the tribal officers tried to enforce the ordinance they
would have acted outside the scope of their authority,
making them subject to suit. Id.
In light of Prairie Island, the plaintiffs might be
able to seek injunctive relief against the tribal court
judges here if they could establish that these judges
acted outside of their authority. Construing the
Complaint liberally, see Compl., Prayer for Relief ¶¶
2, 4, the Court will assume that the plaintiffs do, in
fact, seek a prospective injunction prohibiting Judge
Jacobson and Judge Ringhand from conducting any
further tribal proceedings concerning the welfare of
C.H. and C.P. and requiring them to dismiss existing
proceedings. But the plaintiffs’ argument that the
tribal judges acted outside the scope of their authority
is premised entirely on the legally incorrect theory
53a

discussed in Part I of this R&R. See Pls.’ Opp’n at
45-46 (“[U]nder the ICWA and its incorporation of
Public Law 280, the tribal courts do not have subject
matter jurisdiction to apply tribal law and tribal
preferences against non-tribal parents, instead of state
law when there wasn’t a prior state court ICWA
proceeding without parental objection transferring the
matter to tribal court.”); see also id. at 47. Because the
Court finds that neither Judge Jacobson nor Judge
Ringhand acted outside the scope of their authority,
the respective tribes’ sovereign immunity applies to
them. Stated differently, because neither ICWA nor
Public Law 280 prohibited SMSC or the Red Lake
Band from exercising jurisdiction over the child
welfare proceedings at issue, the tribal judges cannot
be said to have “placed themselves outside of the[ir]
tribe[s’] sovereign immunity.” Prairie Island, 991 F.2d
at 462.
For these reasons, the Court concludes that
Judge Jacobson and Judge Ringhand are entitled to
tribal sovereign immunity. They are not, therefore,
subject to suit for any prospective injunctive relief
sought in connection with Count I of the Complaint.
III.

Count III: Emily Piper and Scott County

Plaintiffs’ § 1983 claims against Emily Piper
(the Commissioner of the Minnesota Department of
Human Services (“DHS”)) and Scott County should
also be dismissed. The plaintiffs allege that
Commissioner Piper and Scott County violated the
plaintiffs’ constitutional and statutory rights under
54a

ICWA by adopting policies and customs that
unlawfully refer child welfare proceedings to tribes.
See Compl., Count III. The plaintiffs argue that when
Scott County learned of a report of possible child abuse
involving C.H., it was required by ICWA and Public
Law 280 to first commence a state child welfare
proceeding. But by contacting the SMSC authorities
and allegedly following the instructions of the Indian
Child Welfare Manual prepared by DHS, Scott County
deprived the plaintiffs of their rights under ICWA and
the Fourteenth Amendment to object to the exercise of
tribal jurisdiction. In an Indian Child Welfare Manual
(“the Manual”), the Minnesota Department of Human
Services (“MNDHS”) instructs counties within the
State of Minnesota regarding when and how to refer
matters involving the welfare of minor children who
are tribal members to Indian tribal courts. Compl. ¶
71; id., Ex. 1. The Manual, plaintiffs contend,
unlawfully instructs Scott County to take such actions
because it is inconsistent with federal law that vests
jurisdiction in these circumstances exclusively with
the states, see Pls.’ Resp. at 21-45, or first with the
states.
Unfortunately for the plaintiffs, this argument
fails for the same reason as the rest of the Complaint.
Neither ICWA nor Public Law 280 conferred exclusive
jurisdiction on the state courts, nor precluded the
SMSC Court or the Red Lake Band Court from
exercising jurisdiction over child welfare proceedings
involving C.H. and C.P. And neither statute required
Scott County to initiate a state court proceeding prior
to referring the report of possible child abuse it
55a

received to SMSC, which already had child welfare
proceedings underway. The Manual reflects the State
of Minnesota and DHS’s policy to defer to the
concurrent jurisdiction of the tribal courts when a
child welfare issue arises involving an Indian child.
Such a policy furthers the goals of ICWA, and complies
with federal law. Because the plaintiffs’ § 1983 claims
against Commissioner Piper and Scott County depend
on the legally incorrect position that the Manual is
inconsistent with ICWA and Public Law 280, the
claims asserted in Court III fail as a matter of law, and
should be dismissed.12
Because there is no merit to the plaintiffs’
claims that Scott County or Commissioner of DHS
violated the plaintiffs’ constitutional or statutory
rights, the Court does not reach the alternative
arguments raised in their motions to dismiss.
However, the Court notes that the plaintiffs have
disavowed that they seek any damages from the
Commissioner in her official capacity. See Pls.’ Mem.
at 37 n.122. Had they done so, any such claim would
have been subject to dismissal on sovereign immunity
grounds pursuant to the Eleventh Amendment.
Treleven v. Univ. of Minn., 73 F.3d 816, 818 (8th Cir.
1996) (“[T]he Eleventh Amendment prohibits
federal-court lawsuits seeking monetary damages from
individual state officers in their official capacities

12

Similarly, to the extent the plaintiffs asserted a claim
against Scott County in Count I of the Complaint, see Compl. ¶
157, such a claim should be dismissed for the reasons stated in
Part I of this Report and Recommendation.

56a

because such lawsuits are essentially for the recovery
of money from the state.”).
RECOMMENDATION
For the reasons above, the Court makes the
following recommendations.
1. The Tribal Court of the Shakopee
Mdewkanton Sioux (Dakota) Community and Judge
John E. Jacobson’s Motion to Dismiss, ECF No. 12,
should be GRANTED.
2. Emily Piper’s Motion to Dismiss Plaintiffs’
Complaint,ECF No. 29, should be GRANTED.
3. Defendant Isaac Hall’s Motion to Dismiss,
ECF No. 36, should be DENIED AS MOOT based on
the plaintiffs’ voluntary dismissal of their claims
against him.
4. Defendant Scott County’s Motion to Dismiss,
ECF No. 46, should be GRANTED.
5. The Tribal Court of the Red Lake Band of
Chippewa Indians and Judge Mary Ringhand’s Motion
to Dismiss, ECF No. 53, should be GRANTED.
6. All remaining claims in the Complaint be
DISMISSED WITH PREJUDICE.
7. The plaintiffs’ Motion for Partial Summary
Judgment, ECF No. 103, should be DENIED AS
57a

MOOT.
Date: December 5, 2017
s/Katherine Menendez
Katherine Menendez
United States Magistrate Judge
NOTICE
Filing Objections: This Report and
Recommendation is not an order or judgment of the
District Court and is therefore not appealable directly
to the Eighth Circuit Court of Appeals.
Under Local Rule 72.2(b)(1), “a party may file
and serve specific written objections to a magistrate
judge’s proposed finding and recommendations within
14 days after being served a copy” of the Report and
Recommendation. A party may respond to those
objections within 14 days after being served a copy of
the objections. LR 72.2(b)(2). All objections and
responses must comply with the word or line limits set
for in LR 72.2(c).
Under Advisement Date: This Report and
Recommendation will be considered under advisement
14 days from the date of its filing. If timely objections
are filed, this Report and Recommendation will be
considered under advisement from the earlier of: (1) 14
days after the objections are filed; or (2) from the date
a timely response is filed.
58a

